TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Information Report Referrals Are Properly
                 Evaluated, but Processing Controls Need to
                                Be Improved



                                      September 18, 2006

                              Reference Number: 2006-30-130




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 18, 2006


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Information Report Referrals Are Properly
                             Evaluated, but Processing Controls Need to Be Improved
                             (Audit # 200530016)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) information
 report referrals. The overall objective of this review was to determine whether the Small
 Business/Self-Employed (SB/SE) Division Examination classification functions effectively
 controlled and evaluated information report referrals received from other sources. To make these
 determinations, we visited four IRS offices to review the classification activities evaluating
 information report referrals during Fiscal Year 2005. We did not evaluate the handling of
 information report referrals associated with informant claims.

 Impact on the Taxpayer
 The information report referral program alerts IRS employees of situations where potential
 noncompliance may have occurred, but it is not a high priority for IRS managers because the
 work is considered discretionary. Information report referrals are being properly evaluated, but
 processing controls need to be strengthened. This is significant to ensure that allegations of
 taxpayer noncompliance are addressed.

 Synopsis
 In the SB/SE Division, Examination classification functions evaluate information report referrals
 to determine whether examinations of the related accounts would be beneficial in promoting
 taxpayer compliance. In Fiscal Year 2005, the SB/SE Division closed 1,583 examinations with
 information report referrals involving recommended assessments of nearly $57 million.
                       Information Report Referrals Are Properly Evaluated, but
                              Processing Controls Need to Be Improved



SB/SE Division management recognizes the need to improve its handling of the information
report referral program. In June 2005, the handling of low-dollar Collection function
information referral reports was centralized at the Philadelphia Campus.1 Management also
established the Significant Noncompliance Factor Program at the Brookhaven Campus to
identify highly noncompliant taxpayers.
Our review of 224 information report referrals determined that classifiers generally made the
proper decision when selecting a return for examination or when accepting the return as filed.
However, SB/SE Division management still needs to place more emphasis on strengthening the
controls over the processing of information report referrals.
The information report referral program is not a high priority for IRS managers because the work
is considered discretionary. Therefore, management has not established any performance
measures or goals to evaluate the program. Since no results are measured, management does not
obtain the data necessary to provide feedback to the functions submitting the information report
referrals to improve the program’s overall productivity. In addition, we found little evidence that
management provided effective oversight of this program.
We also determined the four offices were not effectively controlling information report referrals.
Although two classification functions started to implement controls over the receipt of their
information report referrals, no process was implemented during Fiscal Year 2005. At the other
two classification functions, no attempt was made to establish an inventory control system.
Finally, offices did not retain information report referrals for the appropriate time periods.
Management believed that Fiscal Year 2005 transitions had an impact on the handling of
information report referrals with the consolidation of field offices and the reassignment of former
Collection and Examination function processing activities to the campuses.

Recommendations
We recommended the Commissioner, SB/SE Division, ensure performance measures are
established to evaluate the success of the information report referral program and managerial
work reviews are performed and documented. We also recommended the Commissioner,
SB/SE Division, initiate inventory controls to account for the receipt and disposition of
information report referrals and ensure that procedures covering record retention are followed.




1
 The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                                  2
                    Information Report Referrals Are Properly Evaluated, but
                           Processing Controls Need to Be Improved




Response
IRS management agreed with two of our four recommendations, partially agreed with one
recommendation, and disagreed with one recommendation.
SB/SE Division management agreed that procedures for work reviews should be followed and
the Director, Examination Planning and Delivery, will provide guidance to Area Directors and
the Planning and Special Program Staff on managerial reviews of information report referral
evaluations and record retention.
The Directors, Campus Reporting Compliance, and Examination Policy, agreed to provide
correct retention period information and establish a consistent storage method so that information
referral reports may be easily retrieved for review purposes.
The Director, Examination Planning and Delivery, will consider implementing a control system
after a feasibility study is conducted to determine the cost of establishing a tracking system to
control information report referrals. We agree with the IRS decision to evaluate the feasibility
and cost effectiveness of implementing an inventory control system.
SB/SE management disagreed to devise measurements to evaluate nonselected and selected
cases related to information report referrals because to develop such a system could be labor
intensive and potentially not cost effective. Management’s complete response to the draft report
is included as Appendix IV.

Office of Audit Comment
We continue to believe that the IRS needs some method of capturing the results to evaluate the
usefulness of the information report referral program. For another recommendation, the IRS will
consider implementing a control system after it conducts a feasibility study to determine the cost
of establishing a tracking system to control information report referrals. IRS management could
consider expanding that study to include an evaluation of nonselected and selected cases by
tracking the results. Currently, IRS management cannot provide data on the program’s
effectiveness which would greatly facilitate ascertaining the program’s value. Without such
information, IRS management cannot determine the potential of the information reports referred
by various sources outside the normal examination selection process. Rather, the IRS has opted
not to identify the program’s benefits for evaluating what costs would be reasonable toward
developing a management system.
Copies of this report are also being sent to IRS officials who are affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (202) 622-8500.

                                                                                                    3
                            Information Report Referrals Are Properly Evaluated, but
                                   Processing Controls Need to Be Improved




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Goals and Measures Were Not Established to Analyze the
          Effectiveness of the Information Report Referral Program..........................Page 3
                    Recommendation 1:..........................................................Page 4

          Oversight of the Information Report Referral Program Needed
          to Be Improved .............................................................................................Page 5
                    Recommendation 2:..........................................................Page 6

          Procedures Were Not Established to Control the Receipt and
          Disposition of the Information Report Referrals ..........................................Page 6
                    Recommendation 3:..........................................................Page 7

          Retention Procedures Were Not Followed for Storing Information
          Report Referrals ............................................................................................Page 7
                    Recommendation 4:..........................................................Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Management’s Response to the Draft Report ......................Page 13
        Information Report Referrals Are Properly Evaluated, but
               Processing Controls Need to Be Improved




                    Abbreviations

AIMS             Audit Information Management System
FY               Fiscal Year
IRS              Internal Revenue Service
SB/SE            Small Business/Self-Employed
                       Information Report Referrals Are Properly Evaluated, but
                              Processing Controls Need to Be Improved




                                            Background

The Internal Revenue Service (IRS) frequently receives allegations of situations in which
taxpayers may not be compliant with tax laws. These allegations are received from many
sources including IRS employees from various business functions, Federal and State government
agencies, and individuals from the public. For example, IRS employees prepare information
report referrals when they identify potential noncompliance while performing their duties. In
other instances, State taxing authorities send information to the IRS on State information referral
forms. Individuals such as neighbors, ex-spouses, and former employees sometimes call the IRS
and report the nonfiling or underreporting of income. IRS functions use the following reports to
record and refer allegations of noncompliance:
    •   Examination function prepares an Examination Information Report (Form 5346).
    •   Collection function prepares a Referral Report (Form 3449).
    •   Criminal Investigation and Customer Account Services functions prepare an Information
        Report Referral (Form 3949).
Generally, classification personnel in the Examination Field function are responsible for
reviewing the information report referrals to determine whether the allegations have examination
potential. Classification personnel performing this work are experienced employees with
appropriate tax law training. This process is a manual evaluation to select returns that contain
significant issues likely to result in changes to taxes owed or that require examinations to achieve
voluntary compliance by an identifiable group of taxpayers.
The IRS identifies information report referrals as discretionary work that may be appropriate to
work based upon workload availability and resources. IRS functions have the discretion to select
the next best return available within a broad category of other work. During Fiscal
Year (FY) 2005, the Small Business/Self-Employed (SB/SE) Division recommended
assessments of nearly $57 million on 1,583 closed examinations with information report
referrals. In addition, SB/SE Division management has established a Significant Noncompliance
Factor Program to handle information report referrals involving highly noncompliant taxpayers.
An example of such a taxpayer would be a construction worker not reporting payments for work
performed. In June 2005, the handling of low-dollar Collection function information referral
reports was centralized at the Philadelphia Campus.1


1
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.


                                                                                                          Page 1
                       Information Report Referrals Are Properly Evaluated, but
                              Processing Controls Need to Be Improved



Government Accountability Office guidance recommends that management should account for
and control records, oversee activities, and evaluate programs. To assist in this effort, managers
at all levels should provide a positive control environment; identify potential risk areas; ensure
adequate and effective controls are in place; report results of reviews to the next level of
supervision; ensure reports are supportable, accurate, and candid; provide adequate resources to
correct identified control deficiencies; and implement corrective actions timely and validate
outcomes.
This review was performed at the Campus Compliance Services offices located in
Cincinnati, Ohio, and Philadelphia, Pennsylvania, and the Field2 Classification offices in
Detroit, Michigan, and St. Paul, Minnesota, during the period September 2005 through
June 2006. The audit was conducted in accordance with Government Auditing Standards.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




2
  Within the SB/SE Division Compliance Field Operations function, Compliance areas provide SB/SE taxpayers
post-filing services by helping them understand and comply with tax laws and by applying the tax laws with
integrity and fairness.
                                                                                                      Page 2
                    Information Report Referrals Are Properly Evaluated, but
                           Processing Controls Need to Be Improved




                                Results of Review

SB/SE Division management has taken actions to improve the handling of the information report
referral program. The Significant Noncompliance Factor Program has been implemented at the
Brookhaven Campus for identifying highly noncompliant taxpayers, and low-dollar Collection
function referrals have been centralized at the Philadelphia Campus for processing. We selected
224 information report referrals closed by the 2 campus and the 2 field offices and identified
only a few instances where classifiers had not taken proper action when selecting a return for
examination or accepting the return as filed.
Even though employees are reaching the correct determinations, management still needs to
improve some of the controls for processing information report referrals. Management has not
established goals or performance measures to evaluate the activity of the information report
referral program and, as a result, does not obtain the necessary information to provide feedback
to the functions submitting the information report referrals so they can identify ways to improve
the process. Controls such as use of logs to track cases were not consistently used and
information report referrals were not always available to allow an evaluation of the effectiveness
of the work. Such controls can assist managers to ensure better case selection for promoting
compliance among taxpayers and for making a fairer system for all taxpayers.
Management believed that the consolidation of field offices and reassignment of former
Collection and Examination function processing activities to campuses had a negative impact on
the handling of information report referrals.

Goals and Measures Were Not Established to Analyze the
Effectiveness of the Information Report Referral Program
Management is responsible for maintaining management information that can be used to evaluate
the results of various programs. Our review determined that management does not obtain the
necessary data on the information report referral program to assess the effectiveness of the
program or provide feedback to improve the quality of the information report referrals received.
While management has recognized the need to improve the program by implementing the
Significant Noncompliance Factor Program and the low-dollar Collection function referrals,
establishing program goals would provide the baseline to measure the success of the program.
We did identify one initiative to capture data for evaluating the quality of referred information
during FY 2006. This effort would involve classification personnel entering information on a
review checksheet after the classifier had determined the merit of the referral. The information
from the checksheets would provide data to analyze the potential of information report referrals
received by the classification function. This information could be used by the classification

                                                                                            Page 3
                       Information Report Referrals Are Properly Evaluated, but
                              Processing Controls Need to Be Improved



manager to provide feedback to Field Territory3 managers on the quality of the referrals. If this
initiative turns out to be an effective process to improve taxpayer compliance through better
information report referral preparation, management may want to consider using this process in
other offices.
At the other field office, personnel could only provide Audit Information Management System
(AIMS)4 information based on source and project codes. However, management has found that
using such data on the information report referrals was not reliable because field offices were not
consistently using the AIMS source and project codes for various compliance initiatives.
At one campus, personnel could not provide any statistics covering the handling of information
report referrals. Classification personnel stated they had not selected an information report
referral for examination in the last 18 months. At the other campus, personnel could only
provide AIMS information on their handling of Collection function information report referrals.
Without capturing and comparing measurements between examination activities, management
cannot evaluate whether the information report referral program can or cannot impact the
Examination function program at any significant level. Furthermore, performance measures can
help to ensure that appropriate goals are met and reliable data are obtained, maintained, and
fairly disclosed.

Recommendation
Recommendation 1: The Commissioner, SB/SE Division, should devise measurements that
evaluate nonselected and selected cases related to information report referrals.
        Management’s Response: IRS management did not agree with the recommendation
        because the IRS does not currently have a measurement system in place that would allow
        the tracking of this type of information. The IRS uses project and tracking codes for a
        variety of purposes, and there are limits to the number of codes that can be used for each
        case. Also, the IRS’ ability to track all selected cases on a consistent basis is limited. In
        addition, the IRS does not have the ability to track results of nonselected cases.
        Therefore, a new system would have to be created that would allow the IRS to evaluate
        both nonselected and selected cases. The cost to develop such a labor intensive system is
        disproportionate to the benefits that would be realized, and a manual tracking system is
        not practical at the national level. Consequently, IRS management believes that trying to
        incorporate measurements into the existing systems is not operationally feasible.




3
  A Territory is an organizational subdivision within a Compliance area.
4
  The AIMS is a computer system used by the IRS to control returns, input assessment/adjustments to IRS data
records, and provide management reports.
                                                                                                          Page 4
                    Information Report Referrals Are Properly Evaluated, but
                           Processing Controls Need to Be Improved



       Office of Audit Comment: We continue to believe that the IRS needs some method
       of capturing the results to assess the effectiveness of the information report referral
       program. For another recommendation, the IRS will consider implementing a control
       system after they conduct a feasibility study to determine the cost of establishing a
       tracking system to control information report referrals. IRS management could consider
       expanding that study to include an evaluation of nonselected and selected cases by
       tracking the results.
       Currently, IRS management could not provide statistics showing the volume or the
       examination potential of information report referrals received to assess the effectiveness
       of the program. Obtaining information on the effectiveness would greatly facilitate
       ascertaining the program’s value. Without such information, IRS management cannot
       determine the potential of the information reports referred by various sources outside the
       normal examination selection process. Rather, the IRS has opted not to identify the
       program’s benefits for evaluating what costs would be reasonable toward developing a
       management system.

Oversight of the Information Report Referral Program Needed to Be
Improved
Managers did not provide the necessary oversight to classification personnel reviewing the
information report referrals. In the four offices visited, we only identified one manager that
performed and documented reviews of the classifier’s work. Even at this location, the manager
only documented the formal evaluations of the full-time classifier and did not document reviews
by some part-time classifiers even though review results were discussed with them. In addition,
we identified one annual operational review where a manager commented on the handling of
information report referrals.
At the three other offices, managers had not documented or reviewed the classifiers work of
information report referrals.
IRS procedures require managers to review, document, and discuss completed referral work with
each classifier. Furthermore, managers should conduct reviews of each classifier to determine
whether performance indicates a need for additional training on handling computer-identified or
manually-classified tax returns. Some items to verify are whether selected returns have
sufficient potential tax change to warrant an examination or whether accepted returns had little or
no examination potential.
Without documented work reviews, management cannot ensure the classification determinations
related to information report referrals are proper. These managerial reviews can help to ensure
that appropriate goals are met and that resources are used efficiently and effectively.



                                                                                            Page 5
                    Information Report Referrals Are Properly Evaluated, but
                           Processing Controls Need to Be Improved



Recommendation
Recommendation 2: The Commissioner, SB/SE Division, should ensure procedures covering
work reviews are followed so managers and personnel can determine whether the classification
determinations involving information report referrals are proper. Managerial reviews provide
assurance work is performed properly.
       Management’s Response: IRS management agreed with the recommendation. The
       Campus Reporting Compliance function will gather information from the campuses and
       formulate guidance for referrals to ensure consistency when counting receipts, retaining
       records, and for reviewing determinations. The Director, Examination Planning and
       Delivery, will provide guidance to Area Directors and the Planning and Special Program
       Staff on managerial reviews of information report referral evaluations and record
       retention.

Procedures Were Not Established to Control the Receipt and
Disposition of the Information Report Referrals
The IRS had not established a process to control the information report referrals. The offices did
not maintain complete reports or logs showing the volume of information report referrals
received or how the allegations were processed. As a result, management could not provide
reliable statistics showing the volume of information report referrals received, the number of
information report referrals with examination potential, or the information report referrals with
no examination potential.
Of the four offices visited, two offices did not maintain any type of reports or logs showing the
volume or status of the information report referrals received and processed. The other two
offices were in the process developing control logs. However, no process was implemented
during FY 2005. Even when data were available from these control logs, the information
captured did not supply sufficient detail to determine why the information report referrals were
or were not selected for examination.
Offices were not required to document or report their accomplishments because they were not
being measured on the information report referral work. A management controls system to
document the receipt and handling of information report referrals was not needed because no
oversight reporting requirement existed. As a consequence, management cannot identify what
work is available or determine how the work is handled. In addition, management cannot
measure the effectiveness of the program, provide feedback on the quality of the information
received, or make recommendations to improve the process.




                                                                                            Page 6
                    Information Report Referrals Are Properly Evaluated, but
                           Processing Controls Need to Be Improved



Recommendation
Recommendation 3: The Commissioner, SB/SE Division, should implement procedures to
account for information report referrals from receipt to disposition. Establishing a control
system should enable management to identify the work available and how the work is processed.
       Management’s Response: IRS management partially agreed with the
       recommendation. The current IRS systems do not have the capacity or capability of
       tracking all information referral reports, summarizing the quality of the information
       received, and tracking the disposition of each report. The Director, Examination
       Planning and Delivery, will evaluate the projected volume of reports that would need to
       be tracked and the cost of establishing such a tracking system to determine the feasibility
       of implementing an inventory control system.
       Office of Audit Comment: We agree with the IRS decision to evaluate the feasibility
       and cost-effectiveness of establishing an inventory control system.

Retention Procedures Were Not Followed for Storing Information
Report Referrals
Record control schedule procedures require that campuses maintain retention files of nonselected
referrals for 90 days and field offices maintain retention files for over 2 years. The offices
visited did not maintain retention files as required or did not have adequate control over the files
to permit retrieval of filed documents. The offices had not implemented records management
procedures for maintaining referral documents on cases not selected for examination or ensured
that storage procedures permitted IRS personnel to retrieve records from retention files. Thus,
managers cannot always obtain records to determine that the classification actions on
information report referrals are proper.
Adherence to the retention requirements varied between the offices visited. At one office, the
classifier placed selected cases in a locked cabinet but threw the nonselected cases into a
classified trash container. At another office, the classification personnel did not maintain
retention files of nonselected cases unless a claim by an informant was included with the case.
We did identify two offices where the classification function retained the information report
referrals not selected for examination. However, at one of the offices the files were shipped to
another location where the files were not adequately maintained and the reports could be
retrieved. At the other office, the files were transferred to another storage location and the
receiving office could not locate most of the information report referrals we requested to review.




                                                                                             Page 7
                   Information Report Referrals Are Properly Evaluated, but
                          Processing Controls Need to Be Improved



Recommendation
Recommendation 4: The Commissioner, SB/SE Division, should ensure procedures covering
record retention are followed so managers and other reviewers can obtain records as needed for
evaluating whether the classification determinations are proper.
       Management’s Response: IRS management agreed with the recommendation. The
       Director, Campus Reporting Compliance, and the Director, Examination Policy, will
       provide correct retention period information and establish a consistent storage method so
       that referrals may be easily retrieved for review purposes.




                                                                                          Page 8
                        Information Report Referrals Are Properly Evaluated, but
                               Processing Controls Need to Be Improved



                                                                                                 Appendix I


         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the SB/SE Division Examination
classification functions effectively controlled and evaluated information report referrals received
from other sources. To make these determinations, we visited four IRS offices to review their
classification activities evaluating information report referrals during FY 2005. We used IRS
AIMS1 data only for comparisons to Taxpayer Delinquency Investigations information; the data
were not critical to the audit results.
The sampling methodology was judgmental because there was no viable method to determine the
population so each record would have an equal opportunity to be included in the sample.
To accomplish our objective, we:
I.      Determined whether information report referrals received at the campuses2 and field
        offices were properly evaluated for audit potential.
        A. Interviewed responsible SB/SE Division managers in various classification functions
           to identify the procedures for controlling, evaluating, and selecting referral reports for
           audit.
        B. Selected judgmental samples of 103 information report referrals selected as having
           audit potential received from the various IRS functions (Collection, Criminal
           Investigation, Examination, Customer Account Services, etc.) to ensure the referral
           reports were being properly evaluated.
        C. Selected judgmental samples of 121 information report referrals not selected as
           having audit potential received from the various IRS functions (Collection, Criminal
           Investigation, Examination, Customer Account Services, etc.) to ensure the referral
           reports were properly evaluated.
II.     Interviewed Agency-Wide Shared Services function personnel to identify the records
        management procedures for controlling information report referrals to ascertain the
        retention periods for referral reports selected for audit and not selected for audit.




1
  The AIMS is a computer system used by the IRS to control returns, input assessment/adjustments to IRS data
records, and to provide management reports.
2
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                          Page 9
                    Information Report Referrals Are Properly Evaluated, but
                           Processing Controls Need to Be Improved



III.   Evaluated the monitoring activities to ensure management reviews were properly
       conducted and documented to verify information report referrals were properly
       considered for audit potential or other noncompliance issues.
       A. Interviewed appropriate IRS personnel to obtain procedures and criteria for
          determining the audit potential.
       B. Reviewed management reports covering the evaluations of information report
          referrals to ensure the cases related to those referral reports were properly evaluated
          for audit potential or other noncompliance issues.
IV.    Evaluated whether the information report referrals selected for audit were the cases that
       had the most potential for increasing compliance among taxpayers.
       A. Interviewed responsible officials to determine the procedures for selecting
          information report referral cases regarding allegations of tax evasion versus selecting
          other work.
       B. Reviewed statistical data of referral reports to determine whether the dispositions of
          those cases showed audit results to justify their selection.
       C. Analyzed AIMS files to identify trends from FYs 2004 and 2005 for Examination,
          Collection, and Criminal Investigation functions and nonfiler referral reports.
V.     Analyzed the Collection function Taxpayer Delinquency Investigation files and the
       AIMS files to determine whether the Taxpayer Delinquency Investigation information
       sent to the Examination function was controlled, evaluated for audit potential, and
       productive.




                                                                                           Page 10
                   Information Report Referrals Are Properly Evaluated, but
                          Processing Controls Need to Be Improved



                                                                               Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Parker F. Pearson, Director
Edward Gorman, Audit Manager
Lawrence R. Smith, Lead Auditor
Lisa Stoy, Senior Auditor
Denise M. Gladson, Auditor
Stephen A. Elix, Student Trainee




                                                                                        Page 11
                   Information Report Referrals Are Properly Evaluated, but
                          Processing Controls Need to Be Improved



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Acting Director, Campus Compliance Services SE:S:CCS
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Examination Planning and Delivery, Small Business/Self-Employed Division
SE:S:E:EPD
Headquarters Program Manager, Examination, Small Business/Self-Employed Division
SE:S:E:EPD:ERS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                     Page 12
      Information Report Referrals Are Properly Evaluated, but
             Processing Controls Need to Be Improved



                                                     Appendix IV

Management’s Response to the Draft Report




                                                            Page 13
Information Report Referrals Are Properly Evaluated, but
       Processing Controls Need to Be Improved




                                                      Page 14
Information Report Referrals Are Properly Evaluated, but
       Processing Controls Need to Be Improved




                                                      Page 15
Information Report Referrals Are Properly Evaluated, but
       Processing Controls Need to Be Improved




                                                      Page 16
